MH MURPHY HESSE
TL TOOMEY & LEHANE

LLP

-- Attorneys at Law
Ann M. O'Neill, Esq.
noneillmhtl.com
August 26, 2019
VIA OVERNIGHT MAIL
Mr. Scott S. Harris
Supreme Court of the United States
Office of the Clerk of Court
Washington, D.C. 20543-0001
Re:

No. 19-229
C.D. by and through her Parents and Next Friends, M.D. and P.D., et al.,
Petitioners v. Natick Public School District, et al.
Respondent, Natick Public School's Request for Extension of Time

Dear Mr. Harris:
I am writing as Respondent's counsel pursuant to Supreme Court Rule 15 and 30.4 seeking an
extension of time, up to and including December 6, 2019 to file a Brief in Opposition to the
Petition for a Writ of Certiorari to the United States Court of Appeals for the First Circuit's
Decision in C.D. By and through M.D. v. Natick Public School District, 924 F.3d 621 (1st Cir.
2019) ("Brief in Opposition").
This request is timely because it has been filed more than twenty-three (23) days prior to the date
on which the time for filing the Brief in Opposition is to expire.
This extension is requested for the following reasons:
1. Felicia Vasudevan is lead counsel for the Respondent in this matter. She will be on
maternity leave from July 11, 2019 to October 7, 2019 which will seriously limit her
ability and availability to work on this matter by September 19, 2109, the due date for the
Brief in Opposition. Given her return on October 7, 2019, she needs until December 6,
2019 to coordinate with Natick, draft, and research for the Brief in Opposition.
2. Both Counsel of Record for the Petitioners, Shay Dvoretzky, Esq., and Counsel for the
Respondent, Massachusetts Attorney General's Office, Anna Rachel Dray-Siegel, Esq.
have assented to this Application.
3. This extension of time will not prejudice any party.

300 Crown Colony Drive, Suite 410 I Quincy, Massachusetts 02169 I T 617.479.5000 I F 617.479.6469
Boston I Springfield I info@mhtl.com I www.mhtl.com
1149243v1

M H MURPHY
TL TOOMEY

HESSE
& LEHANE

LLP

Attorneys at Law

Mr. Scott S. Harris
Supreme Court of the United States
Office of the Clerk of Court
August 26, 2019
Page 2
A copy of this request is being served upon all other parties as required by Supreme Court Rule
29.
Respectfully submitted,

07(4401P/ov
Ann M. O'Neill
Counsel for the Respondent, Natick Public Schools
cc:

By email sdvoretzky@ionesday.com
and Regular Mail
Shay Dvoretzky, Esq.
Parker Rider-Longmaid, Esq.
Jones Day
51 Louisiana Avenue, NW
Washington, DC 20001
By email bwish@toddweld.com
and Regular Mail
Benjamin J. Wish, Esq.
Todd & Weld, LLP
One Federal Street, 27th Floor
Boston, MA 02110
By email lrm@martucci-law-associates.com
and Regular Mail
Laurie R. Martucci, Esq.
Martucci Law Associates
20 Cabot Boulevard, Suite 300
Mansfield, MA 02044
By email anna.rachel.dray-siegel@mass.gov
and Regular Mail
Anna Rachel Dray-Siegel
MA Attorney General's Office
Government Bureau
One Ashburton Place
Boston, MA 02108

1149243v1

